r

No.

Supreme Court, U.S"
FILED

AUG 0 7 2021

OFFICE OF THFC.l Fats

IN THE
SUPREME COURT OF THE UNITED STATES

ZIAHONNA CATORI TEAGAN

— PETITIONER

(Your Name)
vs.

THE CITY OF MCDONOUGH^EORG^^^

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES DISTRICT COURT NORTHERN DISTRICT OF GEORGIA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
i

PETITION FOR WRIT OF CERTIORARI

ZIAHONNA CATORI TEAGAN
(Your Name)
1846 Simmons Lane
(Address)
HAMPTON GEORGIA 30228
(City, State, Zip Code)

(Phone Number)

i

QUESTION(S) PRESENTED

Can a Georgia Municipality be held liable for an official, agent, or entity
1.
actions that makes a deliberate choice to follow an internal official policy, practice,
procedure, and or custom while exercising its judicial power under Georgia Law to
adjudicate a State -Law Offense?
2.
Does a Municipal Court Judge act on behalf of a municipality when he or
she exercises judicial authority with respect to it’s local internal official policy,
practice, procedure, and or customs?
3.
Can a Municipality’s City be held liable for claims of 42 LT.S.C. § 1983, due
to an unconstitutional practice by its Municipal Court and agents acting on limited
State authority through an Undenied policy or Custom that is both prohibited by
the State Law and the United States Constitution to secure funds owed to the State
post conviction and sentencing?
4.
Can the State of Georgia Barr §1983 claims by Heck v. Humphrey, 512 U.S.
477,114 S.Ct. 2364,129 L.Ed.2d 383 (1994) by denying the existence of a cause
of action until the criminal proceedings have terminated in the favor of the
Plaintiff who is no longer in custody and or the conviction or sentence has not
been invalidated barring without first addressing the applicability of Heck?

5.
Does a post-conviction claim(s) not over turned based on unconstitutional
violation^) of federal claims under 42 U.S.C. § 1983 for violations of Fourth,
Sixth, and Fourteenth Amendment rights, bar claims under Heck v. Humphrey 512
U.S. 477,114 S. Ct. 2364 (1994) that were caused after conviction and sentnecing
of the initial charge which gives rise for claims under 42 U.S.C. § 1983?

LIST OF PARTIES

[yf All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

McDonough Municipal Court Henry County
Case No: 13-11-08481

State of Georgia v. Ziahonna Teagan

£V\

1;,

k>*

/r ogG'/i

ft[eL(cX\ ffy

1 *■/

Lo-r*

I
Xe^lc^\ bet'lkj 9-^^
eA

bVTA^L

(Ksf\

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

-A
.3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

n

REASONS FOR GRANTING THE WRIT

/■O

3i

CONCLUSION

INDEX TO APPENDICES
i

APPENDIX A
APPENDIX B
APPENDIX C

n

a.

P.)

•i i

£)ro€i

OMniovx oi~ Hm, Ujm kJ

I nio ATtV“
[\A; Ua

^
A

APPENDIX D

t

APPENDIX E
APPENDIX F

K£l

A- L

o

s

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Alkire v. Irving,

H

330 F3d 802 (6th Cir. 2003)
Barnett v. Hooper,
548 F. 2d550 (5th Cir. 1977), vacated as moot, 439 U.S. 1041 (1978

N

Bearden v. Georgia,
461 U.S. 660 (1983)
Baker v. McCollan,
443 U.S. 137,142(1979)
Berg v. County of Allegheny,
219 F. 3d 261, 8 277 (3d Cir. 2000)

\SL

STATUTES AND RULES

18 U.S. Code § 3041. Power of courts and magistrates
18 U.S. Code § 3614. Resentencing upon failure to pay a fine or restitution
42 U.S. Code § 1983 .Civil action for deprivation of rights
Civil Rights Act of 1871 ,

i .

OTHER

Municipal Courts of the State of Georgia Uniform Court Rules

5V
)

1

TABLE OF AUTHORITIES

i
i

i

CASES

Page(s)

Bennis v. Michigan,
516 U.S. 442(1996)
Browning-Ferris Indus, of Vermont, Inc. v. Kelco Disposal, Inc.,
492 U.S. 257(1989)..........................................................

33

Cain v. City of New Orleans,
281 F. Supp. 3d 624 (E.D. La. 2017)
DePiero v. City of Macedonia,
180 F.3d 770 (6th Cir. 1999)
Harjo v. City of Albuquerque,
326 F. Supp. 3d 1145 (D.N.M. 2018)

3b

31

Harmelin v. Michigan,
501 U.S. 957(1991)
Horne v. Dep ’t ofAgric.,
135 S. Ct. 2419(2015)

ii

Kaley v. United States,
134 S. Ct. 1090 (2014)

lE

Kelo v. City of New London,
545 U.S. 469 (2005)...
Koontz v. St. Johns River Water Mgmt. Dist.,
570 U.S. 595 (2013)............................
Leonard v. Texas,
137 S. Ct. 847 (2017)
Nelson v. Colorado,
137 S. Ct. 1249 (2017)
i

lE

CASES
Connick v. Thompson,
131 S. Ct.1350,1359 (2011)
Douglas v. California,
372 U.S. 353.355 (1963)...

|3

Frazier v. Jordan,
457 F.2d 726, 728-29 (5th Cir. 1972)

13

Franks v. Delaware,
438 U.S. 154,165(1978)...............
Griffin v. Illinois,
351 U.S. 12(1956).......................

}3>

Heck v. Humphrey,
152 U.S 477,114 S. Ct. 2364 (1994)

Ilf

Johnson v. City of Philadelphia,
No. 13-CV-02963, 2013 WL 4014465, at 3* (E.D. Pa. Aug 7, 2013
Leatherman v. Tarrant Cty. Narcotics Intelligence & Coordination Unit,
507 U.S. 163 (1993)........................................................................
Mayer v. City of Chicago,
404 U.S. 189,193 (1971)..............................................................

)3

Myers v. Becker Cnty,
833 F. Supp. 1424, 1434 (D. Minn. 1993)....................................

) A.

Monell v. New York City Dep’t of Soc. Services,
436 U.S. 658 (1978).......................................................................
Owen v. City of Independence, Mo,
445 U.S. 622 (1980)............................................ ..........................
Sample v. City of Woodbury,
836. 3d 913 (8th Cir 2016).............................................................

\3l

Sourovelis v. City ofPhiladelphia,
103 F. Supp. 3d 694 (E.D. Pa. 2015)
Timbs v. Indiana,
No. 17-1091,

U.S.

5a

(argued Nov. 28,2018)

United States v. Melrose E. Subdivision,
357 F.3d493 (5th Cir. 2004).......
v. F///. o/Monroeville,
409 U.S. 57(1972)....
Whitner v. City ofPagedale,
No. 4:15-CV-1655-RWS (E.D. Mo. Mar. 10, 2016)

2Cvv.r^w-vsAe^mi
J

OTHER AUTHORITIES
Katherine Baicker & Mireille Jacobson,
Finders Keepers: Forfeiture Laws, Policing Incentives, and
Local Budget, 91 J. Pub. Econ. 2113 (2007)........................
Better Together,
Public Safety—Municipal Courts (Oct. 2014), https://goo.gl/jBkXcD....
Christian Britschgi,
Atlanta Suburb Brags About Finesfor Chipped Paint and Incorrectly
Stacked Wood, Reason (May 24, 2018), https://goo.gl/Zjbq2L...........
Dick M. Carpenter II et al.,
Policingfor Profit: The Abuse of Civil Asset Forfeiture,
Institute for Justice (2d ed., 2015), https://goo.gl/Qd5QY

0FL
dS

Tate v. Short,

|3

401 U.S. 189, 193 (1971)
Tumey v. Ohio,

II; ^

273 U.S. 510(1927).......
United States v. Leon,

)9-

468 U.S. 897,914(1984)
Ward v. Village of Monroeville,

H

409 U.S. 57(1972)........................
Williams v. City of Alexander,
772 F.3d 1307, 1310 (8th Cir. 2014)

Williams v. Illinois,

13

353,355 (1963).......................
OTHER
UCLA Criminal Justice Law Review,4(l) publication 2020
The Broad Scope and Variation of Monetary Sanctions: Evidence from Eight States
UCLA Criminal Justice Law Review,4(1) publication 2020
Framing the System of Monetary Sanctions as Predatory: Policies, Practices, and
Motivations
U.S. Department of Justice Civil Rights Division Dear Colleague
Municipal Liability Under Section 1983: The Importance of State Law
Federalism & Separation of Powers Practice Group Newsletter Volume I, Issue 3,
Fall 1997
Washington Times News article Court ‘deeply troubled5 by woman’s jailing over
unpaid fines published February 15,2020
Arrest Warrant Affidavit
McDonough Municipal Court Ticket Information Sheet that includes sentence and
how the case was adjudicatedGallagher Bassett Services, INC Letter of results of
5/18/14 Loss Claim Investigation .
a
j

MciWK

3-M-e

u

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[y'fFor cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] to? been designated for publication but is not yet reported; or,
[tKis unpublished.
u
The opinion of the United States district court appears at Appendix ^
the-pefeition and is
\t n /
[l|rqx>rted at
; or,
[ ] I32S been designated for publication but is not yet reported; or,
[ ; is unpublished.

5Lto

C_ to

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the __
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

cases from federal courts:
The date, on which the United States Court of Appeals decided my case
.
was
1
[ 3 No petition for rehearing was timely filed in my case.
D^^timely petition for rehearing ;as
j.
Appeals on the following date:
order denying rehearing appears/ at

United States Court of
and a copy of the
pendix n

on1

[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ _ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The constitutional provisions herein involved are the Fourth, Sixth, and Fourteenth
Amendments and Equal Protection Clause of the
Constitution of the United States, which read as follows:
The text of Section 1983 states:
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.

Historical Development of Section 1983
Although passed in 1871, Section 1983 did not come into use as a tool to prevent
abuses by state officials until 1961 with the Supreme Court case of Monroe v.
Pape. In Monroe the Supreme Court listed three uses for the statute:
1 Overriding state laws;
2. Providing remedies where state laws are inadequate; and
3. Providing federal remedies where state remedies are available in theory, but
not in actuality.
Section 1983 has undergone continuing expansion since this time, permitting suits
against municipal entities as well as state actors. State officials found blameworthy
under Section 1983 have included police officers, correctional officers, state and
municipal officials, municipal entities, and private parties acting under color of
law.

3
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED Continued on Next Page

Amendment IV
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no warrants
shall issue, but upon probable cause, supported by oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.

Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial juiy of the state and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the assistance of counsel for his defense.
Amendment XIV
Section 1.
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

H
Continued CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Due Process Clause
The Fifth and Fourteenth Amendments both contain a Due Process Clause,
although the Fourteenth Amendment applies explicitly to the states. The Supreme
Court has interpreted the Due Process Clauses in both articles as having the same
meaning, as Justice Frankfurter describes in his concurrence in Malinski v. New
York, 324 U.S. 401 (1945): "To suppose that "due process of law" meant one thing
in the Fifth Amendment and another in the Fourteenth is too frivolous to require
elaborate rejection."
Due process is generally understood to contain two concepts: procedural due
process and substantive due process.
Procedural Due Process
Procedural due process guarantees fairness to all individuals. This fairness might
require different elements to the accused, including the opportunity to be heard,
given notice, and be given a judicial decision with a stated rationale. As a basic
rule, the more important the right, the stricter the procedural process must be. The
Supreme Court has defined what property and liberty interests are in different
cases. In the case Board ofRegents v. Roth, 408 U.S. 564 (1972), the Court held,
"The Fourteenth Amendment does not require opportunity for a hearing prior to the
nonrenewal of a nontenured state teacher's contract unless he can show that the
nonrenewal deprived him of an interest in 'liberty' or that he had a 'property'
interest in continued employment, despite the lack of tenure or a formal contract."
Substantive Due Process
Although procedural due process is widely accepted, substantive due process is a
bit more controversial. Modem debate regarding the substantive due process clause
tends to focus on certain liberties which the Supreme Court has interpreted as
belonging to citizens, with a large focus on economic liberties, such as the right to
create a private contracts.

18 U.S. Code § 3041. Power of courts and magistrates
For any offense against the United States, the offender may, by any justice or judge
of the United States, or by any United States magistrate judge, or by any
chancellor, judge of a supreme or superior court, chief or first judge of the
common pleas, mayor of a city, justice of the peace, or other magistrate, of any
state where the offender may be found, and at the expense of the United States, be

6

arrested and imprisoned or released as provided in chapter 207 of this title, as the
case may be, for trial before such court of the United States as by law has
cognizance of the offense. Copies of the process shall be returned as speedily as
may be into the office of the clerk of such court, together with the recognizances of
the witnesses for their appearances to testify in the case.
A United States judge, or magistrate judge shall proceed under this section
according to rules promulgated by the Supreme Court of the United States. Any
state judge or magistrate acting hereunder may proceed according to the usual
mode of procedure of his state but his acts and orders shall have no effect beyond
determining, pursuant to the provisions of section 3142 of this title, whether to
detain or conditionally release the prisoner prior to trial or to discharge him from
arrest.

18 U.S. Code § 3614. Resentencing upon failure to pay a fine or restitution

(a) Resentencing.—
Subject to the provisions of subsection (b), if a defendant knowingly fails to pay a
delinquent fine or restitution the court may resentence the defendant to any
sentence which might originally have been imposed.
(b) Imprisonment.—The defendant may be sentenced to a term of imprisonment
under subsection (a) only if the court determines that—
(i)
the defendant willfully refused to pay the delinquent fine or had failed to make
sufficient bona fide efforts to pay the fine; or
(2)
in light of the nature of the offense and the characteristics of the person,
alternatives to imprisonment are not adequate to serve the purposes of punishment
and deterrence.
(c) Effect of Indigency.:—
In no event shall a defendant be incarcerated under this section solely on the basis
of inability to make payments because the defendant is indigent.

Continued CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

STATEMENT OF THE CASE
Ziahonna Teagan was not arraigned on any new charge for failure to appear and
or contempt of court prior to the “warrant” of failure to pay fine and fee being added
post sentencing of Failure to Maintain Insurance on March 19,2014. Ziahonna Teagan
was not also given a meaningful opportunity to present a defense to the elements of such
a potential charge or appointed an attorney to defend her on any new charge.
On March 19, 2014, Ms. Teagan appeared at her bench trial before Donald Patten,
the Chief Judge of the McDonough municipal court Chief Judge Patten found her
guilty of driving without insurance and imposed a fine of $745, as well as a $50
penalty for being late to court Although the City ofMcDonough Municipal Court
had convicted and sentenced Ms. Teagan on March 19,2014 for failure to maintain
automobile liability insurance constitutes a state-law misdemeanor. That offense is
punishable by a fine of between $200 and $1,000 and/or a term of imprisonment of
up to 12 months. See Ga. Code Ann. § 40- 6-10(a)(4) The Court sentenced after
conviction a fine of $795. Ms. Teagan informed Chief Judge Patten that she was
unable to pay the fine that day, but that she would be able to do so by the following
Friday March 28,2014. ChiefJudge Patten then sentenced her to 60 days in jail,
suspended on the condition that she pay the $795 fine by March 28 as she did not
want to be on Probation while paying over a period of time. On March 24,2014
Ms. Teagan filed a “Motion for Stay Pending Appeal” wi1h the municipal court,

requesting the court to “grant a Stay Case: 18-11060. ChiefJudge Patten re­
opened the case without setting a court appearance or sending a notice as to his

1

>V

findings after reviewing the filing and determined that it was not in the proper form
to serve as a valid motion for appeal, closed the case on March 26, 2014 by
instructing the deputy clerk to place it in Ms. Teagan’s court file. No one at the
municipal court notified Ms. Teagan that her motion had effectively been denied.
When Ms. Teagan was unable to pay the $795 fine by March 28, the municipal
court clerk prepared an application for an arrest warrant through policy or practice
of the McDonough Municipal Court in handling unpaid debts or fines owed from
conviction of a crime. On April 25, 2014 Chief Judge Patten Jr then executed and
issued the warrant at the same time, imposing an additional $100 “contempt
charge.” Pursuant to the warrant, a deputy from the Henry County Sheriffs Office
arrested Ms. Teagan at her home on May 18, 2014 She was taken directly to the
Henry County Jail, where she was photographed, fingerprinted, and issued a jail
uniform. Ms. Teagan was brought before the court on May 28, 2014 after several
phone calls from Ms. Teagan while in jail. At Chief Judge Patten Jr direction Ms.
Teagan was brought over from Heniy County jail for him to explain to Ms. Teagan
that she had been incarcerated for her failure to pay her fine by the agreed-upon
March 28 deadline, and that she was therefore subject to the previously suspended
60-day jail sentence. Without counsel or any one representing the State for said
committed charge of Failure to Pay McDonough Municipal Court through its agent
Judge Donald Patten Jr again imposed the pay the $895 be released or serve the 60

?

days which she was remanded back into custody to serve the 60 days. Chief Judge
Patten did not inquire into why Ms. Teagan had failed to pay the fine or whether
she had the ability to pay it. At the conclusion of the appearance, Chief Judge
Patten ordered Ms. Teagan to be returned to the Heniy County Jail to serve the
remainder of her 60-day sentence It is from May 18,2014 that these claims post­
conviction to the original charge conviction on March 19,2014 that the Court
determined that the sentence was $795 plus $50 late fee with no jail time that this
case ensued for 42 U.S.C. § 1983 claims. Jail time was added only after Ms.
Teagan could not pay the fine that day. The McDonough Municipal Court staff and
its agent Donald Patten Jr violated Due Process and Equal Protection rights by
imprisoning her without determining the willfulness of her failure to pay or her
ability to pay; failed to conduct a preliminary revocation hearing to determine
whether she had failed to comply with a condition of her suspended sentence
before issuing a warrant for her arrest; failed to bring her before a judicial officer
within 72 hours of her arrest and incarceration, as required by Georgia law; All
without any direction from a Solicitor or Prosecutor for the State or the City of
McDonough just McDonough Municipal Court staff and Judge Donald Patten Jr
sworn statement that Ms. Teagan committed the offense of Failure to Pay Fine on
or about April 25th 2014 Original violation of Failure to Maintain Insurance.

1

REASONS FOR GRANTING THE PETITION

The decision rendered violates the country’s constitution and or is not compliant
with the country’s law and the State Law is inconsistent with Federal Law. The decisions
based on the law made in Ziahonna Teagan vs. City of McDonough Georgia violates
both the State and Federal Constitutions. Even though Ziahonna Teagan was charged
and convicted of a misdemeanor in proceedings in a municipal court for failure to
maintain automobile liability insurance as required by Georgia law have not given State
actor(s) City of McDonough Municipal Court and Cheif Judge Donald Patten Jr the right
or authority to commit the acts defined in the complaint Ziahonna Teagan vs. The State
of Georgia for asserted federal claims under 42 U.S.C. § 1983 for violations of her
Fourth, Sixth, and Fourteenth Amendment rights, and a state-law claim under Georgia
law for false imprisonment.
This case presents an unspoken and unanswered question of whether a municipal
court judge acts on behalf of a municipality when he or she exercises judicial authority
with respect to local ordinances enacted by the municipality through official policy
adopted by practice and or custom. This case will address this question with respect to
municipal courts in Georgia. Whether the McDonough Municipal Court, through Chief
Judge Patten, was acting on behalf of the City when it took the actions which form the
basis for the constitutional violations alleged.
Walker v. City of Calhoun, 901 F.3d 1245, 1256 (11th Cir. 2018) (concluding, at the
preliminary injunction stage, that a Georgia municipal court acted on behalf of the city
in setting bail policy, and therefore was not immune from § 1983 liability in an indigent

10

arrestee's class action lawsuit challenging the court's standing bail order); ODonnell v.
Harris Cty., 892 F.3d 147, 155-56 (5th Cir. 2018) (holding that a county judge was a
policymaker for the county in establishing an "unwritten, countywide process for setting
bail that violated both state law and the Constitution"); Anela v. City of Wildwood, 790
F.2d 1063, 1066-67 (3d Cir. 1986) (holding that a municipal court judge's "cash bail
schedule," which failed to comply with a state supreme court rule, constituted a
municipal practice for which the city could be held liable under Monell).
The Georgia Supreme Court has explained that the "General Assembly's exercise of its
constitutional authority to enact legislation vesting municipal courts with jurisdiction over various state
misdemeanor offenses... imbues the municipal court with limited state judicial power when it tries a
defendant for violations of the state misdemeanors the General Assembly has placed within its
jurisdiction." Nguyen, 651 S.E.2d at 684 (emphasis added). What it does not explain is whether
municipal courts in Georgia act on behalf of the state or on behalf of the municipality when they
adjudicate misdemeanor offenses under state law while excising the Municipal Court's very own
policy, procedure, custom or practice.

principle that jailing the poor because they cannot pay a sum of money is
The
unconstitutional with deep roots in American constitutional law. The Fourteenth
Amendment also requires a state court to provide a neutral forum in which to
adjudicate ability to pay. Ward v. Village ofMonroeville, 409 U.S. 57(1972);
Ohio, 273 U.S. 510 (1927). Unlike government officials, municipalities
Turney v.
do not enjoy absolute or qualified immunity from constitutional claims brought
under 42 U.S.C. § 1983. Sample v. City of Woodbury, 836F.3d913,917 (8th Cir.
2016) (citing Leatherman v. Tarrant Cty. Narcotics Intelligence & Coordination
Unit, 507 U.S. 163 (1993); Owen v. City ofIndependence, Mo. .445 U.S.
622 (1980)).
The Fourth Amendment requires the States to provide a fair and reliable
determination of probable cause as a condition for any significant pretrial restraint

II

Continued Reasons For Granting The Petition

of liberty. ” Baker v. McCollan, 443 US'. 137, 142 (1979). “Probable cause exists if
the totality of facts based on reasonably trustworthy information would justify a
prudent person in believing the individual arrested had committed an offense.”
Williams v. City ofAlexander, 112 F.3d 1307, 1310 (8th Cir. 2014) (citation
omitted). “Reasonable minds frequently may differ on the question whether a
particular affidavit establishes probable cause, and we have thus concluded that the
preference for warrants is most appropriately effectuated by according ‘great
deference’ to a magistrate’s determination.” United States v. Leon, 468 U.S. 897,
914(1984).
Government official may violate the Fourth Amendment by obtaining a warrant
based on knowingly or recklessly false information, Franks v. Delaware, 438 US.
154, 165 (1978), so may the City, under the principles of municipal liability
discussed in Monell v. New York City Dep’t of Soc. Servs., 436 U.S. 658 (1978),
violate the Fourth Amendment by having a policy that leads to the issuance of
warrants based on knowingly or recklessly false information, or by having a policy
that causes systemic invalidity in issuing and executing warrants. See Myers v.
Becker Cnty., 833 F. Supp. 1424, 1434 (D. Minn. 1993) (“It is axiomatic that
Myers cannot be charged with a misdemeanor for not appearing at a hearing of
which she did not have prior notice. Accordingly, there was absolutely no basis to
objectively believe that probable cause existed to arrest Myers for failure to
appear.”).
Municipalities may be liable under § 1983 if an action “pursuant to official
municipal policy,” including “practices so persistent and widespread as to
practically have the force of law,” cause the plaintiffs’ injuries. Connick v.
Thompson, 131 S. Ct. 1350, 1359 (2011). Bergv. County ofAllegheny, 219 F.3d
261, 8 277 (3d Cir. 2000) (finding that municipality may be liable for Fourth

a

Continued Reasons For Granting The Petition

Amendment violation where it “fail[ed] to provide protective measures and fail
safes” against issuance of erroneous or invalid warrants); Johnson v. City of
Philadelphia, No. 13-CV-02963, 2013 WL 4014565, at *5 (E.D. Pa. Aug. 7, 2013)
(finding valid Fourth Amendment claim was stated against the municipality, based
on its practice of issuing “warrants for a probationer’s failure to appear in court
when the courts were closed.”);See Williams v. Illinois, 399 US. 235, 241 (1970)
(”[T]he Court has had frequent occasion to reaffirm allegiance to the basic
command that justice be applied equally to all persons."); Douglas v. California,
372 US. 353, 355 (1963) (condemning the "evil" of "discrimination against the
indigent"); Griffin v. Illinois, 351 US. 12, 19 (1956) ("There can be no equal
justice where the kind of trial a man gets depends on the amount of money he
has."); see also Mayer v. City of Chicago, 404 US. 189, 193 (1971).
These principles have been applied in a variety of contexts in which a government
jailed someone because of her inability to make a monetary payment. In Tate v.
Short, 401 U.S. 395, 398 (1971), the United States Supreme Court held that "the
Constitution prohibits the State from imposing a fine as a sentence and then
automatically converting it into a jail term solely because the defendant is indigent
and cannot forthwith pay die fine in full." In Bearden v. Georgia, 461 U.S. 660,
672-73 (1983), the Court explained that to "deprive [a] probationer of his
conditional 19 freedom simply because, through no fault of his own he cannot pay
[a] fine ... would be contrary to the fundamental fairness required by the
Fourteenth Amendment." Relying on this Supreme Court precedent, federal and
state courts have long held that any kind of pay-or-jail scheme is unconstitutional
when it operates to jail the poor. In Frazier v. Jordan, 457 F.2d 726, 728-29 (5th
Cir. 1972), for example, the court found that an alternative sentencing scheme of
$17 dollars or 13 days in jail was unconstitutional as applied to those who could

13

Continued Reasons For Granting The Petition

not immediately afford the payment and, therefore, were imprisoned. Id. at 728.
Frazier condemned a system in which ”[t]hose with means avoid imprisonment
[but] the indigent cannot escape imprisonment." Id.; see also Alkire v. Irving, 330
F.3d 802 (6th Cir. 2003) (holding that the Constitution forbids the incarceration of
"an indigent defendant for his failure to pay a debt"); Barnett v. Hopper, 548 F.2d
550, 554 (5th Cir. 1977) ("To imprison an indigent when in the same
circumstances an individual of financial means would remain free constitutes a
denial of equal protection of the laws."), vacated as moot, 439 U.S. 1041 (1978).
The Federal Government has an interest in ensuring that all the Constitutional
Principles of the United States Constitution are carried out with just and compart
with due process in any Court. As today we still have jailing of the poor because
they cannot pay a sum of money it stands 37 years later Section 1983 of Title 42 of
the United States Code ("42 USCS § 1983") is part of the Civil Rights Act of 1871
involving the deprivation of civil rights the primary means of remedying
constitutional violations by state actors regardless or if he or she can afford to get a
conviction or sentence over turned. The Importance of this Court’s discretionary
jurisdictions will set and send a clear message with Ziahonna Teagan vs. The City
of McDonough, Georgia that just because you are too poor or unable to get your
conviction or sentence overturned that were based on constitutional violations that
any court cannot continue to violate citizens’ rights that are protected by the
constitution simply because it can without any repercussions when it causes a
greater effort for an indigent without representation to get a conviction or sentence
overturned or voided. This Court has that power to correct this injustice, the many
that have occurred and the many that will follow if current Heck v. Humphrey, 152
U.S.477, 114 S. Ct 2364 (1994) stands.

n

Continued Reasons For Granting The Petition

It is currently alleged and evidenced in 2nd Motion to Vacate Judgment /Order and
Motion to Set a hearing with subpoena for witnesses filed with the Municipal Court that
The Municipal Court of the City of McDonough Georgia City officials and employees—
through their conduct, decisions, training and lack of training, rules, policies, and
practices—have built a municipal scheme designed to brutalize, to punish, and to profit.
The architecture of this illegal scheme has been in place for many years starting with
verbal refusal to set a hearing in cases handled by the City of McDonough Municipal
Court accused of Void Judgments regarding failure to Pay fines warrants without due
process in the personal journey of Ziahonna Teagan to over come post -convictions
claims based on unconstitutional violations of her Fourth, Sixth, and Fourteenth
Amendment rights by the McDonough Municipal Court Deputy Clerks at the direction
of fill in Judge Ted Echols due to current conflict of interest with chief Judge Donald
Patten Jr. Not only is a pattern for the City of McDonough Municipal Court to not to
send out any notices of hearings or set hearing dates deputy clerks often list the wrong
address when they have updated, current and previously filed court documents for that
as well as having been notified in writing of the correct address and contact information.
The City of McDonough Municipal Court has made it very difficult or nearly impossible
to correct a void sentence/judgment.
There are several class action constitutional challenges to unlawful municipal debtcollection regimes. A recent case settlement Cain v. City of New Orleans (E.D. La.
2017) dealt with warrants for failure to pay fines and fees along with no instituted

15

practice of considering a defendant’s ability to pay before jailing them for failure to pay
their court debts. Within the case Cain v. City of New Orleans (E.D. La. 2017) there are
7 opinions cited that also reflect the recurring issue in Teagan’s case. (9) references to
Tumey v. Ohio, 273 U.S. 510 Supreme Court of the United States March 14, 1927, (8)
references to Ward v. Monroeville, 409 U.S. 57 Supreme Court of the United States Nov
14, 1972, (7) references to In Re Murchison.,349 U.S. 133 Supreme Court of the United
States May 16, 1955, (6) references to Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813
Supreme Court of the United States April 22, 1986, (3) references to Caperton v. AT
Massey Coal Co., Inc., 556 U.S. 868 Supreme Court of the United States June 8, 2009
(1) reference to Condrey v. Suntrust Bank of Ga, 429 F.3d 556 (5th Cir. 2005) Court of
Appeals for the Fifth Circuit Nov. 2, 2005 and (1) reference to Tradewinds Enviro.
Restoration v. St. Tammany Park, 578 F.3d 255 ( 5th Cir. 2009) Court of Appeals for the
Fifth Circuit Aug. 4, 2009. See Jones et al v. City of Claanton, 15-cv-34(M.D.Ala.
2015); Pierce e. al. v. City of Velda City, 15-CV-570 (E.D. Mo.2015):Thompson et al. v.
City of Moss Point, l:15-cv-00182-LG-RHW (S.D. Miss. 2015); Cooper et al. v. City of
Dothan, l:15-cv-425-WKW (M.D.Ala 2015); Jenkins etal. V City of Jennings, 15:-cv252-CEJ (E.D.Mo. 2015); Mitchell et at v. City of Montgomery, 2014-cv-186
(M.D.Ala 2014).

The mere fact that the City of McDonough Georgia utilized that to the extent any
constitutional violations occurred, they were the result of an unlawful “State practice or
custom, not a municipal practice or custom.” leaves an untrusting feeling that even
though Cheif Donald Patten Jr, Deputy clerk, and Court Administrator admitted that it
was the practice, the norm, and was well established before Chief Judge Patten Jr
became the Chief Judge of McDonough Municipal Court the masses who seek justice
are faced with an issue such as this that goes ignored and disregarded by Courts
applying Taylor v. Cnty. of Pima, 913 F.3d 930, 937 (9th Cir. 2019) (Graber, J.,
concurring) (citing McMillian, 520 U.S. 781) (emphasis in original). Teagan v. The City
of McDonough Georgia demonstrates that this is a recurring problem of national
importance warranting this Court’s full review.
The challenges driven by municipal courts presented in this case is the tip of a
nationwide iceberg. THE CITY OF FERGUSON, MISSOURI, v. KEILEE FANT, ET
AL., PETITION FOR A WRIT OF CERTIORARI further points to how far a City or
Municipal Court is willing to go to avoid responsibility for it’s actions by simply
brushing off an individual rights just because they can get away with it due to a loop
hole with Ziahonna Teagan vs. City of McDonough The Supreme Court of the United

Continued Reasons For Granting The Petition

|5f

States has a way to close that loop hole restore faith in Masses that are and were
wronged by Municipal Courts and its Judges acting on internal policy, custom, or
procedures of the Municipalities not of the State Law Policy.
Due to lack of resources A Quoted and reproduced exact verbiage minus the conclusion
of Brief of Amicus Curiae Institute for Justice in Support of Cain v. City of New
Orleans, 281 F. Supp. 3d 624 (E.D. La. 2017) is quoted as follows The Institute for
Justice (“IJ”) is a nonprofit, public interest law firm committed to defending the
essential foundations of a free society by securing greater protection for individual
liberty and restoring constitutional limits on the power of government. A central pillar of
IPs mission is to protect the right to own and enjoy property. Property rights are
jeopardized, however, where fines, fees, and forfeitures deprive individuals of their
personal and real property. IJ litigates cases to defend property rights and also files
amicus curiae briefs in important property-rights cases. See, e.g., Timbs v. Indiana, No.
17-1091,___U.S.___ (argued Nov. 28, 2018); Nelson v. Colorado, 137 S. Ct. 1249
(2017); Home v. Dep’t of Agric., 135 S. Ct 2419 (2015); Kaley v. United States, 134 S.
Ct. 1090 (2014); Koontz v. St. Johns River Water Mgmt. Dist., 570 U.S. 595 (2013);
Kelo v. City ofNew London, 545 U.S. 469 (2005); Bennis v. Michigan, 516 U.S. 442
(1996).
This brief intends to inform the Court on two points: First, it shows that the use of fines,
fees, and forfeitures to generate revenue is a growing and troubling trend. Reliance on

Continued Reasons For Granting The Petition

ift

such revenues creates an incentive for governments to use their municipal court and law
enforcement systems, not to protect the public and do justice, but to generate revenue.
This is a practice that continues to grow, as fines, fees, and forfeitures have exploded in
recent decades. Second, it presents the Court with recent court challenges to the practice
of relying on fines, fees, and forfeitures to boost municipal revenues. These cases are
directly analogous to the appellees’ claims in this case. And some of these courts have
even expressly held that municipal officials cannot, consistent with due process, have a
financial incentive to ticket, convict, fine, or forfeit the property of individuals.2 I. Using
Fines, Fees, and Forfeitures to Fund Municipal Government Incentivizes Municipalities
to Prioritize Revenue Over Justice and Is an Increasingly Common Practice. The court
below found that “[approximately $1,000,000 from various fines and fees goes into the
[Orleans Parish Criminal District Court (OPCDC)] budget each year.” Cain v. City of
New Orleans, 281 F. Supp. 3d 624, 655 (E.D. La. 2017). The trial court held that this
revenue stream creates an unconstitutional conflict of interest because the court’s judges
“therefore have an institutional incentive to find that criminal defendants are able to pay
fines and fees.” Id. The OPCDC’s budgetary reliance on fines, fees, and forfeitures is
part of a troubling nationwide trend. Across the country, local governments have come
to rely on fines, fees, and forfeitures to generate revenue. This reliance incentives
municipalities to prioritize revenue generation over the neutral administration ofjustice.
And it has snowballed into staggering increases in fines, fees, and forfeitures collected.

Continued Reasons For Granting The Petition

A. Governments Have Come to Rely on Fines, Fees, and Forfeitures. Local governments
have come to rely upon fines, fees, and forfeitures to generate a substantial portion of
municipal revenues. In New Orleans specifically, “[c]riminal justice agencies collected
[in 2015]... $1.7 million in bail and bond fees and $2.8 million in conviction fines and
fees.” Mathilde Laisne et al., Past Due: Examining the Costs and Consequences of
Charging for Justice in New Orleans 22, Vera Institute of Justice (2017),
https://goo.gl/DjVFL6. This “[r]evenue from fees helps to fund the municipal and
district courts, the district attorney, public defender, and sheriffs office, and other
agencies.” Id. at 12. The most notorious example of a municipal government using its
court and law enforcement to collect revenue is Ferguson, Missouri. The Department of
Justice’s report on Ferguson demonstrated that the ultimate goal of the town’s police and
municipal court was to generate revenue. Every aspect of life in Ferguson was regulated
by the Ferguson Municipal Code, the violation of which would result in a plethora of
fines, fees, and surcharges. See U.S. Dep’t of Justice Civil Rights Division, Investigation
of the Ferguson Police Department 7 (March 4, 2015), https://goo.gl/JhzEiu; see also
Julia Lurie & Katie Rose Quandt, How Many Ways Can the City of Ferguson Slap You
with Court Fees? We Counted, Mother Jones (Sept. 12, 2014), https://goo.gl/CFu9hL
(documenting how rolling through a stop sign in Ferguson could easily result in
incarceration and impoverishment). Maximizing these financial penalties meant the
criminalization of mundane conditions, heavy-handed enforcement, biased policing, and

Continued Reasons For Granting The Petition

a municipal court operated to quickly convict and obtain fines from defendants, who
were often financially incapable of satisfying the city’s revenue demands. Ferguson, it
turns out, is not an outlier. In St. Louis County, municipalities routinely used their
municipal courts and law enforcement as revenue generators. The cities of Calverton
Park, Bella Villa, Vinita Terrace, and Pine Lawn all derived around half or more than
half of their general revenue from fines and fees. Better Together, Public Safety—
Municipal Courts 8 (Oct. 2014), https://goo.gl/jBkXcD. And when the state of Missouri
capped the amount of money municipalities could retain from traffic fees, municipalities
resorted to ticketing people for things like having a barbeque in the front yard or
basketball hoops in the street. Jennifer S. Mann, Municipalities ticket for trees and toys,
as traffic revenue declines, St. Louis Post-Dispatch (May 24,2015),
https://goo.gl/QNciJk.
Nor is this practice limited to Missouri. In Colorado, five towns receive more than 30
percent of their revenue from traffic tickets and fines, with one town receiving 93
percent of its revenue from traffic tickets. Editorial, Limit cities’ reliance on revenue
from traffic fines, Denver Post (April 24, 2016), https://goo.gl/u5F5Df. In Georgia, the
small city of Doraville, with a population ofjust around 10,000, was reported as writing
over 40 tickets per day. Andria Simmons, Atlanta’s ticket traps: slow down or pay up,
Atlanta JoumalConstitution (Oct. 18, 2014), https://goo.gl/LnqhLz. Doraville also
ticketed people for having cracked driveways or improperly stacked wood, before

Continued Reasons For Granting The Petition
ft

boasting to residents that “[ajveraging 15,000 cases and bringing in over $3 million
annually, the court system contributes heavily to the city’s bottom line.” Christian
Britschgi, Atlanta Suburb Brags About Fines for Chipped Paint and Incorrectly Stacked
Wood, Reason (May 24, 2018), https://goo.gl/Zjbq2L; Patrick Sisson, How the
municipal court money machine burdens city residents, Curbed (May 24, 2018),
https://goo.gl/mKJjw9. In Oklahoma, a County District Judge said that “we fund
probably 90 percent or more of the operation of the courts actually out of the money that
the court collects.” Kate Carlton Greer, Over the Years, Court Fines, Fees Have
Replaced General Revenue Funds, KGOU (Feb. 9, 2015), https://goo.gl/97UCbg. And
“the Nevada Supreme Court recently went broke because revenue from traffic tickets
plummeted.” Karen D. Martin et al., Monetary Sanctions: Legal Financial Obligations in
US Systems of Justice, 1 Ann. Rev. Criminology 471,477 (2018). For many
municipalities, municipal courts have become simply another way to generate revenue.
And when those cities cannot easily obtain revenue through other means, they come to
depend on this revenue to make ends meet. That reliance creates a perverse financial
incentive, which turns local government decision-making away from public safety and
toward revenue generation. B. Reliance on Fines, Fees, and Forfeitures Creates Perverse
Profit Incentives for Municipal Courts, Prosecutors, and Law Enforcement. Reliance on
the criminal justice system to produce revenue creates perverse incentives for local
government. Local governments will use their municipal courts and law enforcement,

Continued Reasons For Granting The Petition

not to do justice, but to collect revenue. This is precisely what the Department of Justice
uncovered in its Ferguson investigation. After noting that “[t]he City budgets for
sizeable increases in municipal fines and fees each year[ and] exhorts police and court
staff to deliver those revenue increases,” the DOJ found that Ferguson’s “municipal
court does not act as a neutral arbiter of the law .... Instead, the court primarily uses its
judicial authority as the means to compel the payment of fines and fees that advance the
City’s financial interests.” U.S. Dep’t of Justice, Investigation of the Ferguson Police
Department at 2, 3.
The pressure to generate “royal revenue” is a well-recognized byproduct of any system
of fines. See Browning-Ferris Indus, of Vermont, Inc. v. Kelco Disposal, Inc., 492 U.S.
257, 271 (1989). Unlike other forms of punishment— which cost the government money
—“fines are a source of revenue.” Harmelin v. Michigan, 501 U.S. 957, 978 n.9 (1991)
(op. of Scalia, J.). So “[t]here is good reason to be concerned that fines, uniquely of all
punishments, will be imposed in a measure out of accord with the penal goals of
retribution and deterrence.” Id. Because “the State stands to benefit” from levying fines,
id., there is a singular risk that governments will exercise their punitive powers with an
eye toward revenue, rather than justice. Civil forfeitures in particular have infamously
perverted government incentives. Civil forfeiture is a mechanism by which law
enforcement agencies can seize and keep property “merely on a showing of probable
cause to believe that the property was implicated in certain offenses.” United States v.

Continued Reasons For Granting The Petition

Melrose E. Subdivision, 357 F.3d 493, 501 (5th Cir. 2004) (holding recent amendment to
Civil Asset Forfeiture Reform Act did not raise standard of proof). “[BJecause the law
enforcement entity responsible for seizing the property often keeps it, these entities have
strong incentives to pursue forfeiture.” Leonard v. Texas, 137 S. Ct. 847, 848 (2017)
(Thomas, J., statement respecting denial of certiorari) (citation omitted). As Justice
Thomas has recently noted, “[t]his system . .. has led to egregious and well-chronicled
abuses” and “frequently target[s] the poor and other groups least able to defend their
interests in forfeiture proceedings.” Id. This is not a merely theoretical incentive.
Empirical research shows that relying on municipal fines and fees leads to fewer violent
and property crimes being solved. See Rebecca Goldstein et al., Exploitative Revenues,
Law Enforcement, and the Quality of Government Service, Urban Affairs Rev., 2018, at
1,17. That is because police departments, in response to political pressure, devote
resources away from solving crime and toward generating revenue. See id. Specifically,
a one-percent increase in a municipality’s fines, fees, and forfeitures revenue “is
associated with a statistically and substantively significant 6.1 percentage point decrease
in the violent crime clearance rate and 8.3 percentage point decrease in the property
crime clearance rate.” Id. at 4. Law enforcement groups themselves have lamented that
“[a]n inappropriate and misguided mission has been thrust upon the police in many
communities: the need to generate large sums of revenue for their city governments.”
Police Executive Research Forum, Overcoming the Challenges and Creating a Regional

Continued Reasons For Granting The Petition

Approach to Policing in St. Louis City and County 7 (April 30, 2015),
http://www.policeforum.org/assets/stlouis.pdf. Reliance on forfeiture revenues can
likewise impact law enforcement behavior and change enforcement priorities. Most state
civil forfeiture laws “give law enforcement agencies a financial stake in forfeitures by
awarding them some, if not all, of the proceeds.” Dick M. Carpenter II et al., Policing
for Profit: The Abuse of Civil Asset Forfeiture 11, Institute for Justice (2d ed., 2015),
https://goo.gl/QdfjQY. The ill effects of this financial stake are well-studied. In a study
in the Review of Behavioral Economics, the authors found that “the temptation for law
enforcement personnel to benefit themselves at the expense of the public is indeed
strong and clearly evident in our data.” Michael Preciado & Bart J. Wilson, The Welfare
Effects of Civil Forfeiture, 4 Rev. Behavioral Econ. 153, 175 (2017),
https://goo.gl/qgBNW. Likewise, studies have shown that “[allowing law enforcement
agencies to reap financial benefits from forfeitures encourages the pursuit of property
over the impartial administration ofjustice.” Carpenter et al., Policing for Profit, at 11
(citing J. M. Miller & L. H. Selva, Drug enforcement’s double-edged sword: An
assessment of asset forfeiture programs, 11 Justice Quarterly 313 (1994)). “[W]hen local
governments allow police agencies to keep a substantial fraction of the assets that they
seize in drug arrests, police respond ... by increasing the drug offense arrest rate.”
Goldstein et al., Exploitative Revenues, at 6 (citing, inter alia, Katherine Baicker &

Continued Reasons For Granting The Petition
&

Mireille Jacobson, Finders Keepers: Forfeiture Laws, Policing Incentives, and Local
Budget, 91 J. Pub. Econ. 2113, 2113-36 (2007)).
These incentives are not limited to unscrupulous individuals who misuse positions of
power. Instead, these incentives lead to systemic distortions of priorities: revenue over
public safety, fees over justice. The problem “is not one of ‘bad apples’ but bad rules that
encourage bad behavior—it is not the players, but the game.” Bart J. Wilson & Michael
Preciado, Bad Apples or Bad Laws: Testing the Incentives of Civil Forfeiture, Institute
for Justice (Sept. 2014), https://goo.gl/ALZZcS. Not surprisingly given their incentives,
municipalities have gotten quite good at the game. C. The Emphasis on Generating
Revenue Has Led to an Explosion in Fines, Fees, and Forfeitures. Fines, fees, and
forfeitures continue to grow. As of 2017, 10 million people owed more than $50 billion
in criminal fines, fees, and forfeitures alone. Karin D. Martin et al., Shackled to Debt:
Criminal Justice Financial Obligations and the Barriers to Re-entry They Create,
Harvard Kennedy Sch. & NatT Inst, of Justice 5 (Jan. 2017), https://goo.gl/7U24No.
That is an average of over $5,000 owed per person. See id. Fines and fees have long
been an aspect of punishment in both Europe and America. Alexes Harris et al., Drawing
Blood from Stones: Legal Debt and Social Inequality in the Contemporary United
States, 115 Am. J. Sociology 1753,1758 (2010). Although the use of monetary sanctions
in the U.S. had waned by World War II, id., the postwar rise in crime, and the concurrent
rise in the cost of administering the criminal justice system, created a need to use

Continued Reasons For Granting The Petition

penalties and fees to supplement state and local budgets, see Council of Economic
Advisors, Fines, Fees, and Bail: Payments in the Criminal Justice System that
Disproportionately Impact the Poor 1 (Dec. 2015), https://goo.gl/RVm4xo. In 1991, 25
percent of inmates reported receiving legal financial obligations. Alexes Harris, A Pound
of Flesh: Monetary Sanctions as Punishment for the Poor 23 (2016). By 2004, the
number of inmates reporting receiving such obligations had risen to 66 percent. Id. That
number is undoubtedly higher today. To shift the cost of criminal justice from taxpayers
to defendants, state and local governments created new, and often novel, financial
penalties for defendants. All 50 states mandate that fines be levied upon conviction. Id.
at 26. This is just the beginning of the payments a defendant must make, however. In
addition to actual fines, state and local governments have added so-called “user fees,”
such as court costs, the cost of public defense, filing fees, jury costs, charges for
witnesses, warrants, criminal laboratory costs, charges related to the collection,
recording, and storage of DNA, court security fees, special court costs, and even, in
North Carolina, a “cost ofjustice fee.” Id. at 27,42. These fees are levied across the
country. For example, in Massachusetts, a defendant is subject to an almost never-ending
list of charges: He’ll incur a fee for court-appointed counsel (even if he’s indigent), a
fine (if he’s guilty of the underlying crime), a victim/witness assessment (even if the
crime is victimless), a monthly supervision fee (if he’s put on probation), a daily
monitoring fee (if he has to wear a GPS device), court costs (because courts are

Continued Reasons For Granting The Petition

<3-7

expensive to run), a default fee (if he defaults on a court date), and so on. Mass. Senate
Comm, on Post Audit and Oversight, Fine Time Massachusetts: Judges, Poor People,
and Debtors’ Prison in the 21st Century, Mass. S. Docket No. 2734, at 10 (Nov. 7, 2016).
In California, a $100 fine for a traffic infraction requires the defendant to pay $490 to
the state, after an additional $390 in charges for such things as a “criminal surcharge,” a
court construction fund, and a fee for EMS operations. Lawyers’ Comm, for Civil Rights
of the San Francisco Bay Area et al., Not Just a Ferguson Problem: How Traffic Courts
Drive Inequality in California 10 (2015), https://goo.gl/bz95yZ. If the defendant fails to
pay this amount or is late in paying, the state will suspend the defendant’s driver’s
license, thus depriving the defendant of the ability to get to work to earn money to pay
the citation, leading to more charges. Id. at 11. In fact, fines and fees fund large amounts
of California governmental activities, everything from the State Optometry Fund to the
Underground Storage Tank Cleanup Fund. Mac Taylor, Improving California’s Criminal
Fine and Fee System, Cal. Legislative Analyst’s Office Rep. No. 3322, at 9 (Jan. 5,
2016). And these legal financial obligations continue to grow. Since 2010, 48 states have
increased civil and criminal fees. Joseph Shapiro, Supreme Court Ruling Not Enough to
Prevent Debtors Prisons, NPR (May 21, 2014) (describing results of yearlong
investigation), https://goo.gl/Tft4XK. Arizona, Louisiana, Ohio, and Texas instituted
new fees and raised existing fees to address 2010 budget shortfalls. See Martin et al.,
Shackled to Debt, at 6 (internal citation omitted). In 2012, the Tennessee legislature

Continued Reasons For Granting The Petition

established a $450 criminal record expungement fee for the principal purpose of raising
revenue for the state general fund. Maura Ewing, Want to Clear Your Record? It will
Cost You $450, The Marshall Project (May 31, 2016), https://goo.gl/wWsgfin. The use
of fines, fees, and forfeitures continues to grow because it is more politically feasible to
levy fees on those stuck in the criminal justice system than to raise taxes: “[M]any
lawmakers use economic sanctions in order to avoid increasing taxes while maintaining
governmental services, with some lawmakers even including increases in ticketing in
projected budgets.” Beth A. Colgan, The Excessive Fines Clause: Challenging the
Modem Debtors’ Prison, 65 UCLAL. Rev. 2,22 (2018) (footnotes omitted). Civil
forfeitures have also continued to grow as a means of revenue generation. In 2012,
agencies in 26 States and the District of Columbia took in more than $254 million
through forfeiture under state laws alone. Dick M. Carpenter II et al., Policing for Profit,
at 11 (noting that deriving totals for all 50 states is “impossible because most states
require little to no public reporting of forfeiture activity”). This amount is growing: The
total amount seized in forfeitures “across 14 states more than doubled from 2002 to
2013.” Id. at 5 (emphasis added). II. The Use of Fines, Fees, and Forfeitures to Generate
Revenue Has Been Challenged in Courts Across the Country, and Some Have Expressly
Found It to Be Unconstitutional. Because the use of fines, fees, and forfeitures to
generate revenue continues to grow, courts are increasingly seeing constitutional
challenges to the practice. Cases are sparse, however, because widespread budgetary

Continued Reasons For Granting The Petition

w
uoppoj opj Suijirejr) ioj suosbs^ psnuiiuo^

■Q'a) l* IB ‘£0esi6 TAV 9103 ‘SA\y-SS9l-A3-£[^ ’ON <3IBPsSBdJ«-<1!3 -a Jsujiq^
tt*9nU9A9J 0;BJ9U9§ O; JOpJO UI S;UBpU9J0p SUIUIJ pUB e§UpOIAUOO ‘Supopop JO ptipUOO
jBuopn;psuooun stK;r) op; soziApuooui ooubijoj sip; Sunurep ‘sooj puB soup uiop
ouuoaoj

uo ooubijoj jBUoptppsui stXp3 oip„ SuiSuopBpo uopoBSSBp b popj s;uopisoj

opx ‘unossijAj ‘ojBpOxfejjo s;uopisoj Xq g\0Zul. P3IU
jo

osbo jbjiuiis

y -p; u‘SBiq

uopB;duio; jbtvpb, ou possossod,, op ji uoao SBiq o; t(uopB;duio; ojqtssod,, b poonj

ojojojop; puB tt-;opop SuppBds jjpuiBjd ponssi opM joopjo op; po;uioddB pUB p9§pnq
stXjio op; jo uopBiBdojd pus ;uouioojojuo mbj joj Xppqisuodsoj ppuipp pouiB;oj„
joAbjv

op; ;Bip po;ou jmoo 9px t(ZL6\) 09 ‘19 S*n 6017 ‘opiAoojuojvjo jpA *A P-^AV

Suponb) Z2L W ‘PI «t*lBPlPnf Jop;o op; pUB UBspjBd ouo ‘suopisod ;uo;sisuooui Ajsnouos
pUB,XpBopoBJd om;, ui unp s;nd Xjijbssooou soppiqisuodsoj 9ApBj;siuiuipB SuidooAis
. Sip pUB SJOMOd 9Apn09X9„ S^JOXBIU OipjBp; SuiUOSBOJ ‘p99J§B SJBOddyJO JttlOQ

opX '\?LL\v PI 'oSpnf |Bdpranui b sb SupOB uopM tipopoB;op puB jBj;nou„ ;ou sbm joXbui
9p; osriBOoq ssooojd onp po;BjotA tJJno3 stJo£Bj/p„ s(X;p op; ;Bp; poSopB jjpupqd opx
‘(6661 ‘-TO TO) Z2L ‘OLL P£‘d 081 tt*soSjBpo ;duio;uoo puiuiuo puB oijjbj; po;so;uoo sip
pop; [joXbui s(X;p ;uBpuojop op;] uopM ssoooid onp |jo] poApdop sbai jjpuiBjdop;,, ;Bp;
ppp ;moji3 p;xis op; ‘BiuopooBpp jo X;iq *a ojoijoq uj -ssooojd onp o;bjoia s;uBpuojop
o;noosoid jo joiauoo o; soApuoour ppuBup ;Bp; punoj poopui oabp spnoo puy *sjjnoo
jBJopoj ui o;B]oojod o; sonupuoo ;uoiuujoao§ jBdpiunui ui soApuooui ;pojd uo uopB§pp
;UOOOJ ‘SSOJOpjIOAOjp 'UOUOUIOUOpd ;UOOOJ XjOApBJOJ B SI SOOJ pUB soup uo OOUBpOJ

and the vehicle was seized. Id. After a city hearing officer found that Harjo had not
proven her own innocence, Harjo filed suit against the City of Albuquerque alleging that
the City had an unconstitutional financial incentive to use civil forfeiture. Id. at 116465. The district court found in Harjo’s favor, reasoning that “the forfeiture program has
the control to spend all it takes in, and it has done so.” Id. at 1197. The Court thus
“conclude[d] that the City of Albuquerque’s forfeiture officials have an unconstitutional
institutional incentive to prosecute forfeiture cases, because forfeiture revenues are set in
a special fund, and the forfeiture program can spend, without meaningful oversight, all
of the excess funds it raises.” Id. at 1193. Likewise, homeowners in Philadelphia filed a
class action against the City’s civil forfeiture program, which they alleged “use[d] form
legal documents and endless proceedings to generate millions of dollars in revenue.”
Sourovelis v. City of Philadelphia, 103 F. Supp. 3d 694, 698 (E.D. Pa. 2015) (internal
quotation marks omitted). The court held that the plaintiffs had adequately pleaded a due
process violation because they alleged that “the [Philadelphia] D.A.’s Office allocates
forfeiture proceeds for both institutional and personal benefit and further allegfed] a
profit-sharing agreement with the Philadelphia Police Department.” Id. at 709. The
parties have since agreed to a proposed consent decree on that claim. Proposed Consent
Decree on Plaintiffs’ Fifth and Sixth Claims for Relief, Sourovelis v. City of
Philadelphia, No. 2:14-cv-04687, Doc. 253-1 (E.D. Pa. September 18,2018),
https ://goo.gl/k9vsZ5.

Continued Reasons For Granting The Petition

The United States Supreme Court as a whole does have the power to enforce the
Constitution and overturn any violations or claims such as Violation of Due
Process and Equal Protection Clauses ofthe Fourteenth Amendment for jailing any
individual whether he or she willfully felled to pay the fine, Violations of Sixth and
Fourteenth Amendments for failure to provide counsel, Violation of Fourth
Amendment for issuing and executing an invalid arrest warrant, Violation of
Fourteenth Amendment for revoking a suspended sentence without a hearing,
Violation of Liberty Interests Protected by the Fourteenth Amendment all of which
ultimately leads to False Imprisonment due to "discrimination against the indigent"
which will continue to endure and give up all rights offered under 42 U.S.C § 1983
without intervention and correction from the U.S. Supreme Court.

Legislation or the General Assembly is not the answer to resolving and giving
redress to violations such as ones alleged and aggrieved in Teagan vs. City of
McDonough.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

33

